COURT OF APPEAL
FIFTH APPELLATE DISTRICT

IFMLii
APR 2 3 2020
Brian Cotta, Clerk
By-

/nu

Deputy

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIFTH APPELLATE DISTRICT

THE PEOPLE,
F074975
Plaintiff and Respondent,
(Super. Ct. No. BF161652A)
v.

OPINION

DAVID ALLEN KUNTZ,
Defendant and Appellant.

APPEAL from a judgment of the Superior Court of Kern County. John R.
Brownlee, Judge.
Diane Nichols, under appointment by the Court of Appeal, for Defendant and
Appellant.
Xavier Becerra, Attorney General, Gerald A. Engler, Chief Assistant Attorney
General, Michael P. Farrell, Assistant Attorney General, Carlos A. Martinez and Jeffrey
D. Firestone, Deputy Attorneys General, for Plaintiff and Respondent.
-ooOoo-

33

INTRODUCTION
Appellant David Allen Kuntz was convicted of several sex crimes occurring over a
period of approximately nine months against four of his cousin’s minor children with
whom he lived. Appellant appeals the judgment of his convictions, raising the following
arguments: (1) the trial court erred by admitting appellant’s confession because the
confession was obtained in violation of Miranda v. Arizona (1966) 384 U.S. 436
(Miranda) and his constitutional rights to due process; (2) the evidence was
constitutionally insufficient to support one of the convictions; (3) defense counsel
violated appellant’s Sixth Amendment right to the assistance of counsel by conceding
guilt in closing argument; or in the alternative, that defense counsel provided ineffective
assistance of counsel with the comments made in his closing argument; and (4) the trial
court erred by instructing the jury that it could use Child Sexual Abuse Accommodation
Syndrome (CSAAS) evidence to evaluate the believability of witnesses’ testimony and
by instructing the jury it could apply CSAAS evidence to the testimony of a victim not
named in the information. Appellant also claims the cumulative prejudicial effect of the
alleged errors requires reversal. Finally, appellant asserts there is a clerical error in the
abstract of judgment regarding fines that must be corrected. We direct the trial court to
correct the abstract of judgment to reflect the oral pronouncement of the trial court. In all
other respects, we affirm.
FACTUAL BACKGROUND
Prosecution Evidence
In 2015, appellant lived with his maternal cousin, V.J.1 At that time, V.J. had
seven children: E.R.; B.R., bom in 2011; A.S.; I.S., bom in 2009; G.S., bom in 2007;
D.S., bom in 2005; and J.S., bom in 2004. Appellant looked after V.J.’s children while

l

Pursuant to California Rules of Court, rule 8.90, we refer to certain persons by
their initials. No disrespect is intended.
2

34

she was in school from March 2015 through July 2015, five days a week from 8:00 a.m.
to 5:00 p.m. Appellant slept in the living room or in the boys’ bedroom.
On September 21, 2015, V.J. was alerted by B.R. that I.S. had told him that
appellant and G.S. had been “ ‘being gay.

5

V.J. asked B.R. what he meant by “being

59

gay,” and B.R. said it meant touching each other. V.J. questioned I.S. and G.S. about the
comment. I.S. told V.J. that appellant would “suck on [G.S.]’s pecker.” G.S. denied it
happened at first but then admitted that “ ‘[appellant] does’
[him].

5 99

appellant “ ‘bes [sic] gay to

V.J. called the police. Appellant was present during this conversation, and

while V.J. called the police, appellant went into J.S.’s room. Officers Anthony
Manriquez and Ian Jones responded to V.J.’s house. When they arrived, they could not
find appellant. When V.J. went into J.S.’s room, the window was open. V.J. had not
seen appellant leave through the front door.
Manriquez interviewed G.S. G.S. told Manriquez that appellant forced G.S. to let
appellant suck G.S.’s penis. G.S. said he tried not to let appellant do it, but appellant
“strapped [G.S.] down” in order to accomplish the act. This happened in J.S.’s bedroom
approximately eight times. Appellant continued the act after G.S. told appellant to stop.
The last time was approximately three weeks ago. G.S. said appellant also told G.S. to
suck on appellant’s penis, but G.S. said no. At the time of this interview, G.S. said
appellant never did anything else. Later that night, G.S. confirmed with detective Lance
O’Nesky, the lead investigator on the case, that appellant strapped G.S. down with
appellant’s hands and feet in order to suck G.S.’s penis in J.S.’s bedroom approximately
eight times. G.S. told O’Nesky that appellant told G.S. not to tell anyone, and G.S. did
not because he thought he would get in trouble. G.S. also told O’Nesky that when
appellant asked G.S. to touch his penis, and G.S. said no, appellant would then scoot next
to G.S. and touch G.S.’s penis with appellant’s hand. This happened when G.S.’s mom
was out at Walmart approximately 14 days before. G.S. never saw anything happen with
appellant and any of the other children.
3

35

Jones interviewed I.S. I.S. told Jones he saw appellant sucking on G.S.’s penis a
few days ago while his mom was at Walmart. I.S. said appellant and G.S. often would go
into a room together and lock the door. I.S. also said that B.R. sometimes sucked on
appellant’s nipple and “it gets all red.” This exchange followed:
“[JONES]:

... Does [appellant] tell [B.R.] to [suck on his nipple]?

“[I.S.]:

Nope.

“[JONES]:

No? [B.R.] just does it on his own?

“[I.S.]:

No, um, [appellant], um, just lays down and lets him.

“[JONES]:

Okay. Um. Has [B.R.] — so [appellant] and [B.R.] have
they ever done nasty stuff together other than, uh, putting his
mouth on his nipple?

“[I.S.]:

Mm no.

“[JONES]:

No?

“[I.S.]:

He just, um, just kept sucking on his nipple.”

I.S. said appellant has not done anything “nasty” with him (I.S.)
Jones attempted to obtain a statement from B.R. but determined B.R. had
difficulty understanding the difference between a truth and a lie.
The next day on September 22, 2015, O’Nesky interviewed I.S., D.S., and J.S.
separately. D.S. and J.S. each told O’Nesky that appellant and G.S. would go into a room
together and lock the door. I.S. told O’Nesky that he has seen appellant suck on G.S.’s
“middle part,” referring to the penis, and that B.R. “does the same thing” and sucks
appellant’s nipple. I.S. told O’Nesky that one time he saw appellant suck on G.S.’s penis
while B.R. sucked on appellant’s nipple. I.S. had seen B.R. suck on appellant’s nipple
approximately 15 times. During the interviews conducted on September 22, 2015, none
of the boys admitted they had been touched by appellant though D.S. said appellant tried
to have D.S. touch him one time by asking and D.S. said, “no.” This happened twice.
Appellant told D.S. if anyone “snitches,” appellant would get rid of his phone so no one
4
36

could find him and would go to Michigan. I.S. also said that appellant tried to touch
I.S.’s penis, but I.S. kicked him and he stopped.
Appellant was arrested at his grandmother’s house on September 23, 2015.
O’Nesky interviewed appellant. Appellant initially denied having sexual contact with
G.S. or any of the boys. Appellant then admitted to engaging in multiple sexual acts with
the boys including performing oral copulation on I.S., G.S., D.S., and J.S.; inserting his
finger into the butts of G.S., D.S. and I.S.; and inserting his penis into the butts of G.S.
and I.S. Appellant admitted he had “[p]layed with [G.S.J’s penis” and asked G.S. to put
his mouth on appellant’s penis. Appellant said the acts made him homy and that he did it
for sexual gratification.
Appellant told O’Nesky that B.R. sucked on appellant’s nipple. Appellant said
B.R. put B.R.’s hands down appellant’s pants. In appellant’s statement to O’Nesky on
September 23, 2015, appellant told O’Nesky that B.R. sucked on his nipple “quite a bit.”
Appellant said this happened every other night for approximately five months. Appellant
also said he would wake up in the middle of the night with B.R.’s hand down appellant’s
pants. Appellant said that when B.R. tried to do this when appellant was awake,
appellant told him not to. Oh one occasion, appellant woke to find he had an erection
from the touching.
Appellant also told O’Nesky he once lived with a cousin named Tyler, who was
13 or 14 years old, in Colorado. He slept next to Tyler every night and touched Tyler’s
penis on 15 to 16 occasions.
After interviewing appellant, O’Nesky asked V.J. to bring the children back for
more interviews. O’Nesky testified he did not tell V.J. anything about what appellant
told him. During their interviews, O’Nesky told each boy that he had talked to appellant
and that appellant had told him what happened. He did not tell them specifically what
appellant said occurred. Each boy with the exception of I.S. then volunteered that
appellant had engaged in sexual acts with them.
5

37

G.S. told O’Nesky appellant put his penis in G.S.’s butt once and it hurt. G.S. said
appellant played with G.S.’s penis three times with his hand skin to skin.
D.S. told O’Nesky that appellant “always tries to put his wiener in my butthole.”
Appellant had tried approximately eight times. D.S. told appellant no, but appellant did it
anyway. Appellant would pull down D.S.’s and his own pants, but D.S. would “sock”
appellant before appellant’s penis would touch him. Appellant “got to” D.S. one time,
and put his penis into D.S.’s butthole. Appellant tried to suck D.S.’s penis.
J.S. told O’Nesky that appellant had tried touching him. J.S. said appellant tried
“touching all of us” but that J.S. did not let him. J.S. said that appellant would hold him
down and make him let appellant touch his penis. J.S. said appellant touched J.S.’s
privates with appellant’s hands. J.S. said appellant had tried four times to put his penis in
J.S.’s butt. Appellant tried sucking J.S.’s penis as well. J.S. saw appellant and G.S.
“doing something” under the blankets approximately six times.
I.S. said no one had touched him inappropriately.
At trial, B.R. did not testify because it was determined he had trouble determining
the difference between a truth and a lie. I.S. testified he had never seen appellant before.
I.S. said no one had touched him in a way he did not want to be touched, that he had
never seen B.R. touched in a way he would not like, and that he had never talked to a
police officer. I.S. said he had never heard the word “nipple” before and denied knowing
what counsel was pointing to when counsel pointed to his own nipple. G.S., D.S., and
J.S. testified to substantially the same acts they told O’Nesky about after he had
interviewed appellant.
Psychologist Michael Musacco testified as an expert in CSAAS. CSAAS was
identified by researchers who noticed behaviors of child sexual abuse victims seemed to
be inconsistent with what would be expected of a victim. CSAAS explains
misconceptions about how a victim of child sexual abuse would behave, but does not

6

38

prove abuse occurred. There are five stages of CSAAS: secrecy, helplessness,
accommodation, delayed/unconvincing disclosure, and retraction.
Musacco expounded upon the five stages of CSAAS. He testified that for ongoing
abuse to continue, there has to be secrecy. A sexually abused child feels helplessness
because he or she typically experiences emotional confusion and is overwhelmed. Child
victims of sexual abuse accommodate or adapt to the abuse. When a child is sexually
abused, they do not tell right away for a variety of psychological pressures. Disclosure
may be delayed or inconsistent. Victims tell part of the story to “test the waters,” or see
how the person will respond and then will share more later, Retraction is a less common
stage, but a child may recant an accusation because a child may be removed from the
home as a result of the abuse and there may be pressure for them to get the family back
together or get a family member out of a legal difficulty. Musacco testified that the
application of CSAAS starts with the premise that there has been abuse. Musacco
testified he had no knowledge of the case.
Defense Evidence
Appellant testified in his own defense. Appellant testified that he never touched
any of the boys. He also denied touching his cousin Tyler. Appellant confessed to
O’Nesky because he was scared and because O’Nesky said he had DNA evidence and
that there was “no point in delaying the inevitable.” Appellant thought if he confessed,
he could get counseling instead of going to prison.
PROCEDURAL BACKGROUND
Appellant wais convicted by jury of four counts of lewd and lascivious acts—one
each against B.R. (count 1), G.S. (count 5), D.S. (count 8), and J.S. (count 11) (Pen.
Code,2 § 288, subd. (a)); two counts of sodomy against a child less than 10 years of
age—one each against G.S. (count 2) and D.S. (count 6) (§ 288.7, subd. (a)); one count of

2

All further undesignated statutory references are to the Penal Code.
7

39

sodomy against a child less than 10 years of age against G.S. (count 3; § 288.7,
subd. (b)); one count of attempted lewd and lascivious acts against D.S. (count 7;
§§ 664/288, subd. (a)); one count of attempted lewd and lascivious act by force against
J.S. (count 9; §§ 664/288, subd. (b)); and one count of attempted sodomy against a child
younger than 14 years of age and 10 years younger than the defendant against J.S. (count
10; §§ 664/286, subd. (c)). In addition, the jury found true appellant committed an
enumerated sexual offense against more than one victim (§ 667.5, subd. (e)(4)) as to
counts 1, 5, 8, and 11.
As to counts 1,3, and 11, appellant was sentenced to a term of 15 years to life for
each count. As to counts 2 and 6, appellant was sentenced to a term of 25 years to life for
each count. As to count 9, appellant was sentenced to the midterm of four years. As to
count 7, appellant was sentenced to one year (one-third the midterm). Sentences for
counts 5, 8, and 10 were imposed but stayed pursuant to section 654. Appellant’s total
prison term was 95 years to life plus five years.
DISCUSSION
I.

Admission of Appellant’s September 23, 2015 Statement to O’Nesky
A.

Circumstances of Appellant’s Statement

Before O’Nesky began questioning appellant, he advised appellant with the
following:
“[J]ust because we’re at the police station, ah, the circumstances, okay, I’m
gonna let you know, you have the right to remain silent. Anything you say
may be used against you in court. You have the right to the presence of an
attorney before and during any questioning. If you cannot afford an
attorney, one will be appointed for you free of charge before any
questioning if you want.”
O’Nesky then asked appellant, “Do you understand that?” Appellant responded, “Yeah.”
O’Nesky proceeded to ask appellant his name, his birthday, and his contact information.
O’Nesky then asked appellant where he lived and asked him to name V.J.’s children.
Appellant told O’Nesky he babysits the children for work. O’Nesky asked appellant how
8

40

he got along with the children. O’Nesky then asked appellant if appellant knew why they
were talking, and appellant said he thought it was because of accusations made on
September 21, 2015.
Appellant then repeatedly denied sexual contact with G.S. or any of the children.
O’Nesky asked appellant if there was any reason appellant’s DNA would be on G.S.’s
penis. Appellant replied, “No,” but explained that he sleeps in the same bed with the
children. O’Nesky continued to ask if appellant’s DNA would match any found on G.S.
Appellant said he was nervous about his DNA being on G.S. because appellant had been
living with the family for nine months and his saliva is all over the bed, and the children
wear boxers to bed. O’Nesky commented that appellant’s DNA would not get on G.S. by
accident. O’Nesky told appellant they had taken swabs of G.S.’s penis and that the DNA
evidence would “tell the truth.” O’Nesky told appellant DNA would stay on G.S. for
“quite a while” even if G.S. had taken a shower or a bath. O’Nesky said the DNA
evidence would “tell us. And I — I think it’s pretty obvious under the circumstances
what that’s gonna tell us.” O’Nesky told appellant, “Nothing is gonna change the truth.”
O’Nesky told appellant that his DNA is not going to “fly across the room onto [the
children].” O’Nesky said he thought it was “pretty clear what the DNA is gonna show.”
O’Nesky then likened concealing the truth to carrying bricks on one’s shoulders.
O’Nesky told appellant the way to start putting the bricks down is by telling the truth.
O’Nesky said appellant would not be able to apologize until he told the truth and
admitted what he did. O’Nesky told appellant when they walked out of the interrogation
room, appellant should leave all his “bricks” in the room. O’Nesky told appellant they
know he touched G.S. and that the DNA is not going to lie. Throughout the interview,
O’Nesky repeatedly told appellant he did not think appellant was a “bad guy” or that he
wanted to hurt children and that appellant should tell the truth.
Appellant eventually told O’Nesky, “I don’t want to be in trouble. But if I need
help I need help. I mean and I thought about it before. I’m—I mean I’ve been bisexual
9

41

since I was 8 years old. I mean I’m not—I’m not, you know, and ... I’ve tried to fight it
and it’s—this shit’s difficult.” Appellant then described a situation where he walked in
on J.S., D.S., and G.S. lying side by side on the bed with their pants down, and they
asked appellant to “suck their dicks.” Appellant said he turned around and walked out.
O’Nesky then asked appellant if he put his mouth on G.S.’s penis, and appellant said he
did. Appellant then admitted to several sexual acts he committed with G.S. O’Nesky
asked if anything happened with the other children, and appellant admitted he committed
sexual acts with J.S., D.S., I.S., and B.R.
O’Nesky asked appellant if he would like to write an apology letter to V.J., and
appellant said he would. O’Nesky then left appellant alone, and appellant became visibly
emotional and appeared to be crying for over an hour while he worked on his letter. In
the letter, appellant wrote that he knows he made every fear and nightmare V.J. could
ever imagine come true. He wrote, “What I did to you hurts most cause [it is] not just
one but to 5 of [your] babies. Except [A.S.] and [E.R.] I swear I’ve never put my hands
on [yo]ur daughter or [E.R.]”
While appellant was writing his letter, O’Nesky came in twice to ask clarifying
questions about the sexual conduct, and appellant answered.
B.

Relevant Procedural History

The People moved in limine to admit appellant’s statements from his
September 23, 2015 interview with O’Nesky. Defense counsel moved in limine to
exclude the statements, but informed the court he was not asking for an Evidence Code
section 402 hearing on the admission of the interview. Defense counsel requested the
court to review the video recording of the interview and “make a determination as to
Miranda or any sort of involuntariness or threats or promises for leniency.” The court
informed counsel it had reviewed the video up to page 73 of the transcript and had
reviewed the remainder by reading the transcript only because the court encountered
computer problems.
10

42

The court noted appellant did not expressly waive his Miranda rights but held
appellant had given an implied waiver because he said he understood his rights and
proceeded to answer O’Nesky’s questions. The court noted it felt there was an issue of
whether appellant was under the influence of drugs because he had mentioned using
methamphetamine or marijuana in the morning or the night before. The court noted,
however, that appellant was aware of and answered the questions asked of him. The
court noted that though appellant was evasive early on, the court felt appellant was in
control of his faculties, understood where he was, what the situation was, and what
questions were being asked of him. The court found appellant’s statement admissible.
C.

Analysis
1.

Standard of Review

When reviewing a ruling admitting a confession, we accept the trial court’s
resolution of any factual dispute to the extent the record supports it, but otherwise we
determine independently whether the confession was taken in violation of the rules of
Miranda. {People v. Duff{2014) 58 Cal.4th 527, 551.)
2.

Waiver

Pursuant to Miranda, a suspect in custody “must be warned prior to any
questioning that he has the right to remain silent, that anything he says can be used
against him in a court of law, that he has the right to the presence of an attorney, and that
if he cannot afford an attorney one will be appointed for him prior to any questioning if
he so desires.” {Miranda, supra, 384 U.S. at p. 479.) In order for a defendant’s
statements to be admissible against him, he must have knowingly and intelligently
waived his Miranda rights. {People v. Cruz (2008) 44 Cal.4th 636, 667 {Cruz).) A
defendant who waives his Miranda rights need not do so with any particular words or
phrases, and a waiver may be either express or implied. {Cruz, supra, at p. 667.)

11
43

Appellant contends the court should not have found an implied waiver because his
individual characteristics and the police methods rendered any such waiver unknowing
and/or involuntary. We reject this claim.
The question is whether the waiver is knowing and intelligent under the totality of
the circumstances surrounding the interrogation. {Cruz, supra, 44 Cal.4th at p. 668.)
This means relinquishment of the right must have been voluntary—it was the product of a
free and deliberate choice rather than intimidation, coercion, and deception—and it must
have been made with a full awareness of both the nature of the right being abandoned and
the consequences of the decision to abandon it. {People v. Whitson (1998) 17 Cal.4th
229,247; see Cruz, at p. 669 [“The test for determining whether a confession is voluntary
is whether the questioned suspect’s ‘will was overborne at the time he confessed.’ ”].)
u (

Once it is determined that a suspect’s decision not to rely on his rights was uncoerced,

that he at all times knew he could stand mute and request a lawyer, and that he was aware
of the State’s intention to use his statements to secure a conviction, the analysis is
complete and the waiver is valid as a matter of law.’ ” {People v. Whitson, at p. 247.)
The California Supreme Court has stated, “[a] suspect’s expressed willingness to
answer questions after acknowledging an understanding of his or her Miranda rights has
itself been held sufficient to constitute an implied waiver of such rights.” {Cruz, supra,
44 Cal.4th at pp. 667-668; accord, People v. Medina (1995) 11 Cal.4th 694, 752; People
v. Sully (1991) 53 Cal.3d 1195, 1233.) This principle has been upheld by the United
States Supreme Court, which explained: “Where the prosecution shows that a Miranda
warning was given and that it was understood by the accused, an accused’s uncoerced
statement establishes an implied waiver of the right to remain silent.” {Berghuis v.
Thompkins (2010) 560 U.S. 370, 384 [finding implied waiver of Miranda rights].)
Appellant first argues any waiver was not knowing, intelligent, or voluntary
because he was “inexperienced with custodial interrogation.” To support this claim,
appellant cites People v. Nelson (2012) 53 Cal.4th 367, 375, where a 15-year-old
12

44

defendant willingly answered questions after acknowledging he understood his rights,
and People v. Debouver (2016) 1 Cal.App.5th 972, 977-978, where the defendant
expressly waived his rights but was intoxicated. In those cases, the defendants had
conditions, young age and intoxication, that put at issue whether the defendants
voluntarily and knowingly waived their rights. The courts in those cases found the
defendants’ waivers valid based partly on those defendants’ experiences with the criminal
justice system. {People v. Nelson, at p. 375; People v. Debouver, at p. 978.) These cases
do not stand for the inverse proposition that inexperience with the criminal justice system
by itself renders a waiver invalid. Appellant’s argument is undermined by the fact that he
had been arrested before and testified he had been read Miranda rights before.
Here, there was no indication on the record that appellant had any characteristics
that would hinder his understanding of the rights as explained to him or compel us to find
his waiver not knowing, intelligent, and voluntary. Appellant was a 28-year-old man at
the time of questioning who had a high school degree and some college education. There
was no evidence he had any mental or developmental issues.
We recognize the trial court noted appellant had admitted to drug use the day of

I

the interview and defer to its factual finding that appellant was not impaired so as to
inhibit his understanding of his rights or the questioning. The court’s finding is
supported by the record. Appellant’s answers were responsive to the questions asked. In
addition, O’Nesky testified he had been a detective for 10 years and had classroom and
field training as well as extensive on-the-job experience in determining whether suspects
were intoxicated. He testified he has encountered individuals who were under the
i

influence of either methamphetamine or marijuana over 200 times, and nothing indicated
to him that appellant was under the influence of narcotics. Appellant himself testified he
understood the questions O’Nesky was asking him and was able to give him intelligent
answers.

13

45

willfully touched B.R.’s body or willfully caused B.R. to touch appellant’s body and (2)
that the touching was done with lewd intent. We disagree.
On a challenge to the sufficiency of the evidence, our role is limited. (People v.
Ochoa (1993) 6 Cal.4th 1199, 1206.) We “must review the whole record in the light
most favorable to the judgment below to determine whether it discloses substantial
evidence—that is, evidence which is reasonable, credible, and of solid value.” {People v.
Johnson (1980) 26 Cal.3d 557, 578.) We presume the existence of every fact the trier of
fact could reasonably deduce from the evidence that supports the judgment. {People
v. Rayford (1994) 9 Cal.4th 1,23.) We do not reweigh the evidence or revisit credibility
issues. {People v. Icke (2017) 9 Cal.App.5th 138, 147.)
Section 288, subdivision (a) reads, in pertinent part: “[A] person who willfully
and lewdly commits any lewd or lascivious act... upon or with the body, or any part or
member thereof, of a child who is under the age of 14 years, with the intent of arousing,
appealing to, or gratifying the lust, passions, or sexual desires of that person or the child,
is guilty of a felony.” The statute is violated if there is “ ‘any touching’ of an underage
child accomplished with the intent of arousing the sexual desires of either the perpetrator
or the child.” {People v. Martinez (1995) 11 Cal.4th 434, 452.) Thus, the offense
described by section 288, subdivision (a) has two elements: “ ‘(a) the touching of an
underage child’s body (b) with a sexual intent.’ ” {UnitedStates v. Farmer (9th Cir.
2010) 627 F.3d 416, 419.)
Appellant argues the act of B.R. sucking on appellant’s nipple was not “willful[]”
because B.R. instigated the touching. We disagree. “ ‘[Wjillfully,’ when applied to the
intent with which an act is done or omitted, implies simply a purpose or willingness to
commit the act, or make the omission referred to.” (§ 7.) The terms “willful” or
“willfully,” as used in penal statutes, imply that the person knows what he is doing,
intends to do what he is doing, and is a free agent. {In re Jerry R. (1994) 29 Cal.App.4th
1432, 1438:)

—------18

50

Here, I.S. told the police that appellant “lays down and lets” B.R. suck his nipple
until it “gets all red.” In appellant’s statement, he did not express that he made any effort
to stop the behavior. The jury could have reasonably concluded that because appellant
was conscious of the touching and allowed it to happen, the touching was willful. Thus,
there is substantial evidence of a willful touching.
We also reject appellant’s claim the evidence was insufficient to support lewd
intent. In addition to an actual or constructive touching, section 288, subdivision (a)
“requires ‘the specific intent of arousing, appealing to, or gratifying the lust of the child
or the accused.

(.People v: Warner (2006) 39 Cal.4th 548, 557.) “Because intent for

purposes of... section 288 can seldom be proven by direct evidence, it may be inferred
from the circumstances.” (In re Mariah T. (2008) 159 Cal.App.4th 428, 440.) In
determining whether the defendant acted with the required specific intent, the jury
therefore looks to all the circumstances, including the charged act. (People v. Martinez,
supra, 11 Cal.4th at p. 445.) “Other relevant factors can include the defendant’s
extrajudicial statements [citation], other acts of lewd conduct admitted or charged in the
case [citations], the relationship of the parties [citation], and any coercion, bribery, or
deceit used to obtain the victim’s cooperation or to avoid detection [citation].” (Ibid)
Here, the circumstances of the touching are the sucking of the nipple of an adult
man. Though appellant points out there is evidence on the record that B.R. had some
fixation with nipples, as a male cannot lactate, there is no appropriate or proper
explanation for the behavior. Further, I.S. told police he once witnessed appellant
sucking on G.S.’s penis while B.R. was sucking on appellant’s nipple, which could
indicate the act was done for a sexual purpose. Lewd intent can be inferred from the
circumstances of the act. Appellant’s extrajudicial statements and the context of his
disclosure of this act further reveals his intent. After admitting to several sexual acts,
which he expressly admitted were done for the purpose of sexual gratification with the
other children, appellant disclosed the acts with B.R. after O’Nesky asked if appellant
19

51

had anything else to add. Further, appellant disclosed that B.R. would attempt to touch
appellant’s penis, and that he woke up once with an erection. Appellant, in his apology
letter, included B.R. as one of V.J.’s children he had harmed. There is substantial
evidence from which the jury could infer the touching was done with a lewd intent.
Count 1 is supported by sufficient evidence.
III.

Defense Counsel’s Closing Argument
A.

Sixth Amendment Violation

Appellant contends his Sixth Amendment rights to the assistance of counsel, to
maintain his innocence, and to defend against the charges were violated when defense
counsel made statements regarding appellant’s confession with regard to count 1.
During his closing argument, defense counsel pointed out at length that most of
appellant’s confessions were obtained by leading questions. He points out O’Nesky is
“the first person to talk about... the majority [of the] counts in this case. Defense
counsel argued O’Nesky, through these leading questions, suggested to appellant what to
confess and this was part of what coerced appellant to confess. Defense counsel then
stated the following:
“Now, I will say this, Count 1, Count 1, does truthfully—I’d like to
think my job isn’t to pull the wool over your eyes.
“Count 1 is the only confession. It’s the only statement that is not
led. It is the only statement where it’s ... not open-ended.
“It’s the one that my client actually cops to. Everything else he’s led
down the direction. With [B.R.], it wasn’t. You want to see how to do it
and not how to do it. You want to see how to get people to say what you
want them to say?
“Do you want to see, arguably, a righteous confession? There. You
let them say the words because it’s much more powerful, because then it
prevents his crafty government-appointed public defender from getting up
there and just—and—and making mincemeat out of it. It prevents his
public defender from getting up here and saying that that’s coerced.

20

52

“That’s how to do it. These whole pages are. That’s not how to
interrogate. That’s not how to do it at all.”
Appellant contends the comments about “count 1” constituted error like that found
in the recent United States Supreme Court case, McCoy v. Louisiana (2018)

U.S

[138 S.Ct. 1500] {McCoy). In McCoy, the trial court permitted defense counsel at the
guilt phase of a capital trial, despite the defendant’s vociferous insistence he did not
engage in the charged acts and adamant objection to any admission of guilt, to tell the
jury the defendant “ ‘committed three murders.... [H]e’s guilty.

5

{Id. atp. 1505.) The

United States Supreme Court held “that a defendant has the right to insist that counsel
refrain from admitting guilt, even when counsel’s experienced-based view is that
confessing guilt offers the defendant the best chance to avoid the death penalty.” {Ibid.)
The court went on: “Guaranteeing a defendant the right ‘to have the Assistance of
Counsel for his [defense],’ the Sixth Amendment so demands. With individual liberty—
and, in capital cases, life—at stake, it is the defendant’s prerogative, not counsel’s, to
decide on the objective of his defense: to admit guilt in the hope of gaining mercy at the
sentencing stage, or to maintain his innocence, leaving it to the State to prove his guilt
beyond a reasonable doubt.” {Ibid.) The McCoy court noted that some decisions are
grounded in a defendant’s autonomy, and “are reserved for the client—notably, whether
to plead guilty, waive the right to a jury trial, testify in one’s own behalf, and forgo an
appeal.” {Id. at p. 1508.) The court held the error was structural and remanded the
matter for a new trial. Appellant contends McCoy’s holding should be extended to
noncapital cases. We need not decide this here because appellant’s claim would fail even
if we assume McCoy is not limited to capital cases.
Defense counsel’s comments are distinguishable from those made in McCoy
because defense counsel did not concede guilt. Rather, defense counsel stated appellant
had confessed to count 1. Appellant conceded in his testimony that he confessed and did
so because he thought he would receive counseling in lieu of prison time. Defense
counsel’s comments did not contradict appellant’s testimony in that the jury could still
21
53

believe appellant volunteered the confession because he thought he would be rewarded
with leniency. Defense counsel pointed out that in addition to the reasons appellant
referred to in his testimony for confessing, O’Nesky led the majority of appellant’s
confessions. Defense counsel’s comment that count 1 was the only confession in the
context of the argument as a whole was that it was an unled confession in contrast to all
the others. Defense counsel did not imply the jury did not have a duty to find appellant
committed the offense in count 1 beyond a reasonable doubt. To the contrary, at the
close of his argument, he asked the jury to “hold [the prosecution] to their burden and
find [appellant] not guilty.” There is no evidence that defense counsel’s strategy was not
in line with appellant’s objective of maintaining innocence.
Moreover, the comments are not tantamount to a concession of guilt because they
could not alone cause the jury to convict him. The jury was instructed they could only
rely on appellant’s out-of-court statements to convict him if they concluded that other
evidence showed the crime was committed. (CALCRIM No. 359.) The jury was also
instructed they must find the People proved beyond a reasonable doubt appellant was
guilty of each charge and must not convict appellant unless they do so. (CALCRIM Nos.
220, 359.) They were instructed that (1) facts may be proved by direct or circumstantial
evidence (CALCRIM No. 223), (2) nothing the attorneys say is evidence (CALCRIM No.
222), and (3) they alone were to judge the credibility of witnesses (CALCRIM No. 226).
Appellant points out that in two separate parts of his rebuttal argument, the
prosecutor characterized defense counsel’s comments as “conceding]” count l.3 That
the prosecutor made these remarks does not alter our conclusion. The jury was instructed
their duty was to decide what the facts are based only on the evidence presented at trial
3

At oral argument, appellant remarked that trial counsel should have objected to the
prosecutor’s comments that he “conced[ed]” count 1. To the extent appellant argues this
constituted ineffective assistance of counsel, we reject this claim for similar reasons.
Objection would have likely prompted the trial court to remind the jury nothing the
attorneys say is evidence and would not likely have resulted in a different outcome.
22

54

(CALCRIM No. 200) and that nothing that the attorneys say is evidence, including
remarks made in closing arguments (CALCRIM No. 222).
At oral argument, appellant requested we consider an additional authority, People
v. Eddy (2019) 33 Cal.App.5th 472 {Eddy). In Eddy, defense counsel stated in his closing
argument that the defendant “ ‘committed the crime [of voluntary manslaughter]’ ” but
maintained the defendant was not guilty of first or second degree murder. {Eddy, at p.
477.) The jury convicted the defendant of first degree murder. {Ibid.) At a post­
conviction hearing requested by the defendant pursuant to People v. Marsden (1970) 2
Cal.3d 118, the defendant complained that he disagreed with defense counsel’s decision
to argue for voluntary manslaughter and instead wanted to maintain a defense of factual
innocence. {Eddy, supra, at p. 478.) Defense counsel admitted he knew the defendant’s
position but went with what he thought was best for the defendant in his professional
opinion. {Ibid.) The appellate court reversed, finding error under McCoy. {Eddy, supra,
at p. 481.) Appellant cites Eddy to support his proposition that contrary to other recent
California cases, e.g. People v. Lopez (2019) 31 Cal.App.5th 55, [refusing to extend
McCoy to a case where the defendant did not expressly raise an objection to conceding
guilt] that appellant’s failure to object before his conviction does not preclude protection
under McCoy. Because we find that defense counsel did not concede guilt, Eddy is not
applicable to the present case. We find no error under McCoy.
B.

Ineffective Assistance of Counsel

In the alternative, appellant claims defense counsel’s comments constituted
ineffective assistance of counsel. To prevail on such a claim, appellant must establish
that (1) the performance of his trial counsel fell below an objective standard of
reasonableness and (2) prejudice occurred as a result. {Strickland v. Washington (1984)
466 U.S. 668, 687; People v. Anderson (2001) 25 Cal.4th 543, 569.) “When examining
an ineffective assistance claim, a reviewing court defers to counsel’s reasonable tactical
decisions, and there is a presumption counsel acted within the wide range of reasonable
23
55

professional assistance. It is particularly difficult to prevail on an appellate claim of
ineffective assistance. On direct appeal, a conviction will be reversed for ineffective
assistance only if (1) the record affirmatively discloses counsel had no rational tactical
purpose for the challenged act or omission, (2) counsel was asked for a reason and failed
to provide one, or (3) there simply could be no satisfactory explanation. All other claims
of ineffective assistance are more appropriately resolved in a habeas corpus proceeding.”
(People v. Mai (2013) 57 Cal.4th 986, 1009.)
Appellant has not met his burden of establishing the first prong under Strickland.
There is a conceivable reasonable explanation for defense counsel’s choice to highlight
the fact that appellant’s confession to the acts with B.R. was unled. Defense counsel
wanted to highlight the majority of appellant’s confession was obtained by leading
questions. Defense counsel’s concession that O’Nesky did not “lead” appellant’s
confession as to count 1 was likely made in an attempt to retain credibility with the jury.
As we discuss, we do not find defense counsel’s comments were at odds with appellant’s
testimony. To the extent defense counsel in any way contradicted appellant’s testimony,
however, he may have done so because he intuited the jury was not accepting appellant’s
testimony and made a strategic decision to focus on defeating the counts where evidence
of leading confession was stronger. On this record, there is no showing that defense
counsel’s conduct fell below an objective standard of reasonableness.4 Accordingly,
appellant cannot show ineffective assistance of counsel.
IV.

CSAAS Instructional Error
Before Musacco’s testimony, the court instructed the jury with CALCR1M

No. 1193: “You will hear testimony from Dr. Musacco regarding child sexual abuse
accommodation syndrome. Dr. Musacco’s testimony about child sexual abuse
4

Because appellant has not shown the first prong has been met, we need not address
his argument that no prejudice need be shown pursuant to United States v. Cronic (1984)
466 U.S. 648.
24

56

accommodation syndrome is not evidence that the defendant committed any crimes of the
charges against him. You may consider this evidence only in deciding whether or not the
alleged victims of abused conduct was not inconsistent, but the conduct of someone who
has been molested and in evaluating the believability of their testimony.” The same
instruction was given at the close of evidence, but instead of “alleged victims,” the court
named G.S., D.S., J.S., and I.S.
A.

Standard of Review

In addressing a claim of jury misinstruction, we assess the instructions as a whole
and view the challenged instruction in context with other instructions to determine
whether there was a reasonable likelihood the jury applied the challenged instruction in
an impermissible manner. (People v. Jennings (2010) 50 Cal.4th 616, 677.) We also
presume the jury followed the court’s instructions. {People v. Edwards (2013) 57 Cal.4th
658, 746.)
B.

CALCRIM No. 1193: “Evaluating the believability of [witnesses’!
testimony”

Appellant argues the portion of CALCRIM No. 1193 that instructs jurors to use
CSAAS evidence to evaluate the believability of the boys’ testimony is improper because
it permits the jurors to determine whether the victims’ molestation claims are true. Such
a use of CSAAS evidence is impermissible. (See People v. Bowker (1988) 203
Cal.App.3d 385, 391-394.) Appellant claims the “jury could only have taken the
instruction to mean it could use the CSAAS evidence to determine whether the named
victims were telling the truth about the molestation claim, not merely to determine
whether the witness’s testimony was not inconsistent with CSAAS.” Appellant’s
argument is not well taken.
It is not reasonably likely the jury understood CALCRIM No. 1193 as allowing it
to use the CSAAS evidence in determining that the molestation occurred or that the
victims’ molestation claims were true because CALCRIM No. 1193 expressly prohibits
25

57

the jury from using the CS AAS evidence to determine the molestation occurred. The
only reasonable interpretation of the instruction as a whole is that jurors may use the
evidence to evaluate the believability of the witnesses’ claims in light of the evidence that
they engaged in conduct seemingly inconsistent with the conduct of a child who had been
molested after the molestations allegedly occurred. Contrary to appellant’s claim, it is
not a misstatement of the law to say CSAAS evidence may be used to evaluate the
believability of a child’s testimony. Per the California Supreme Court, CSAAS evidence
“is admissible to rehabilitate [the child] witness’s credibility when the defendant suggests
that the child’s conduct after the incident—e.g., a delay in reporting—is inconsistent with
his or her testimony claiming molestation.” {People v. McAlpin (1991) 53 Cal.3d 1289,
1300.) Though jurors are prohibited from determining that a defendant is guilty because
a child exhibits the stages of CSAAS, they are not prohibited from determining that a
child is not a credible witness and therefore their claims are not true just because they
exhibit stages of CSAAS. The instruction tells jurors they should not allow behaviors
that may normally cause them to disbelieve a child victim’s testimony to necessarily do
so if those behaviors coincide with stages of CSAAS. CALCRIM No. 1193 does not
mislead the jury into using CSAAS evidence for the impermissible purpose of
determining that because a witness exhibits the stages of CSAAS evidence, the defendant
is guilty. Thus, it is not reasonably likely the jury applied the instruction in the
impermissible manner appellant claims.
C.

CSAAS as Applied to I.S.

Appellant argues the court erred by including I.S.’s name with G.S., D.S., and J.S.
in reference to the children whom the jury was permitted to apply CSAAS evidence. We
find any error clearly harmless. The jurors were properly instructed they may consider,
among other factors, a witness’s behavior while testifying, whether he or she made a
statement in the past that is consistent or inconsistent with his or her testimony, and how
reasonable the testimony is when considered in conjunction with the rest of the evidence.
26

58

(CALCRIM No. 226.) The jurors were also instructed if they thought a witness lied
about some things but told the truth about other things, they could accept the part they
think is true and ignore the rest. (CALCRIM No. 226.) By these instructions, the jurors
were permitted to believe I.S.’s statement to the police and discount his testimony
without regard to any application of CSAAS evidence. Based on the record, it is not
reasonably probable the jury found I.S.’s statements to the police credible based on any
improper application of CSAAS evidence to his statements. It is patently more likely the
jury found I.S.’s statement to the police credible because his account of the unusual
behavior that took place between appellant and B.R. was independently corroborated by
appellant’s statement. In contrast, I.S.’s claims during his testimony that he did not know
what a nipple was and had never spoken to a police officer were clearly not credible in
light of his audio recorded interview with Jones and video recorded interview with
O’Nesky.
The jurors certainly did not need, and likely did not apply, CSAAS evidence to
come to the conclusion that I.S.’s statement to police was credible and his testimony was
not.
For the foregoing reasons, we find any error in including I.S.’s name in the
instruction was harmless.
V.

Cumulative Error
Appellant also contends the cumulative effect of the errors he has identified

requires reversal of his convictions. Because we find no errors, we reject this claim.
VI.

Correction of Abstract of Judgment
The trial court imposed a fine of $300 pursuant to section 290.3, plus a penalty

assessment, for each of counts 1, 3, 5, 6, 7, 8, 9, 10, and 11. The trial court stayed the
fines for counts 5, 8, and 10 pursuant to section 654. Thus, the total fines imposed
pursuant to section 290.3, and not stayed, total $1,800, plus penalty assessments of
$5,580. Under section “12. Other orders,” the abstract of judgment states: “FINE
27

59

ORDERED OF $3000.00 PLUS PENALTY ASSESSMENT OF $9300.00 PURSUANT
TO SECTION 290.3 OF THE PENAL CODE.” No mention is made of the fines ordered
stayed.
Appellant asserts the abstract of judgment must be modified to reflect the correct
sentence imposed orally by the trial court. Respondent agrees. We accept respondent’s
concession. Where there is a discrepancy between the oral pronouncement of judgment
and the minute order or the abstract of judgment, the oral pronouncement controls.
{People v. Mitchell (2001) 26 Cal.4th 181, 185-186.) “If the judgment entered in the
minutes fails to reflect the judgment pronounced by the court, the error is clerical, and the
record can be corrected at any time to make it reflect the true facts.” {People v. Hartsell
(1973) 34 Cal.App.3d8, 13.)
DISPOSITION
We remand with directions that the abstract of judgment be corrected in section
“12. Other orders” to read as follows: “FINES ORDERED OF $2,700 PLUS PENALTY
ASSESSMENTS OF $8,370 PURSUANT TO SECTION 290.3 OF THE PENAL CODE,
OF WHICH FINES OF $900.00 PLUS PENALTY ASSESSMENTS OF $2,790 ARE
STAYED PURSUANT TO SECTION 654 OF THE PENAL CODE.” The court shall
prepare an amended abstract of judgment and forward it to the appropriate authorities.
In all other respects, the judgment is affirmed.

SMITH, J.
WE CONCUR:

PEftA, Acting P.J.

MEEHAN, J.
28

60

SUPREME COURT

FILED
JUL
Court of Appeal, Fifth Appellate District - No. F074975

8 2020

Jorge Navarrete Clerk

S262484
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc

THE PEOPLE, Plaintiff and Respondent,
v.
DAVID ALLEN ICUNTZ, Defendant and Appellant.

The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice

VAf?&nJix $

